U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                             PATENT AND
                       TRADEMARK OFFICE

                               Financial Statements
                                   Fiscal Year 1997


           Audit Report No. FSD-9755-8-0001/March 1998




                              PUBLIC
                              RELEASE



      Office of Audits, Financial Statements Audit Division
March 20, 1998


MEMORANDUM FOR:               Bruce A. Lehman
                              Assistant Secretary of Commerce and
                               Commissioner of Patents and Trademarks



FROM:                         Johnnie E. Frazier
                              Acting Inspector General

SUBJECT:                      Report on the Audit of PTO’s Financial Statements as of
                              September 30, 1997 and 1996
                              Audit Report No. FSD-9755-8-0001

Attached is the final report relating to our audit of the financial statements of the Patent and
Trademark Office (PTO) as of September 30, 1997 and 1996. Our report includes three
components: Report on Financial Statements, Report on Internal Control Structure, and Report
on Compliance with Laws and Regulations. An executive summary is presented on page i.

This was the fifth audit of PTO under the requirements of the Chief Financial Officers Act of
1990, as amended by the Government Management Reform Act of 1994. We have issued an
unqualified opinion on PTO’s fiscal year 1997 Principal Statements. Our findings and
recommendations have been reviewed with your staff during the audit, and we have incorporated
their comments, as appropriate. Based on our mutual agreement, we are issuing this report as
final.

In our Report on Internal Control Structure, we make recommendations to address the three
reportable conditions that we identified surrounding PTO’s internal controls. We commend PTO
on actions taken during the fiscal year to strengthen its internal controls, which resulted in
categorizing two prior year material weaknesses as reportable conditions. This progress can be
attributed to the hiring of additional staff, the establishment of the Financial Reporting and
Analysis Division within the Office of Finance, and the involvement of PTO program offices in
aspects of financial management.

Although PTO made improvements in its controls during the fiscal year, several key financial
management positions have yet to be permanently filled. Specifically, the positions of Associate
Commissioner and Chief Financial Officer and the Director for the Office of Budget are currently
filled by acting officials.
We recognize PTO’s commitment to preparing high quality and meaningful financial statements.
To continue to this objective, it is necessary that the accounting requirements set forth in OMB
Bulletin 97-01, Form and Content of Agency Financial Statements, and the Government
Performance and Results Act (GPRA) of 1993 are taken into consideration for preparation of the
fiscal year 1998 financial statements.

The implementation of OMB Bulletin 97-01 poses tremendous challenges to a reporting entity for
various reasons. In particular, this Bulletin requires six statements to be prepared as compared to
OMB Bulletin 94-01 which required the preparation of three statements. One of these six
statements, the Statement of Net Cost, requires PTO to report its costs by suborganizations and
programs, which should be based on the missions and outputs described in PTO’s GPRA strategic
and annual plans, its budget structure, and the Statement of Federal Financial Accounting
Standards No. 4, Managerial Cost Accounting Standards. As the Federal Government has not
been required previously to report information in such a manner for financial or budgetary
purposes, PTO will need to ensure it places the appropriate emphasis on the implementation of
OMB Bulletin 97-01.

We commend PTO’s efforts to prepare for the increasing requirements of GPRA. Specifically,
PTO participated as a pilot for the preparation of a strategic plan. In addition, PTO has begun to
implement an activity-based costing methodology, in order to capture costs in a manner that is
expected to enable PTO to compile financial and performance data in compliance with the
requirements of GPRA, as well as OMB Bulletin 97-01. For example, the overview in the “Fiscal
Year 1997 A Patent and Trademark Office Review” effectively captured performance and
financial measures indicating the successes and challenges of PTO.

In accordance with generally accepted auditing standards and Government Auditing Standards
issued by the Comptroller General of the United States, the Inspector General reports are dated
December 29, 1997, the date of completion of the audit field work. As required by DAO 213-5,
please provide an audit action plan within 60 days of the date of this memorandum.

Should you need to discuss the contents of the report, please contact George E. Ross, Assistant
Inspector General for Auditing, on (202) 482-1934, or Erin D. Singshinsuk, Director for Financial
Statements Audit Division, on (703) 603-0301.

We appreciate the cooperation and courtesies extended to us by your staff during the audit.

Attachment

cc:    W. Scott Gould, Chief Financial Officer and
       Assistant Secretary for Administration
To obtain a copy of this financial statements report,
please contact the OIG Publications Unit using any of
the following means:

Mail:        OIG Publications Unit
             Mail Stop H7099-C
             14th Street & Constitution Avenue, N.W.
             Washington, D.C. 20230

E-Mail:      oigreports@doc.gov

Telephone:   202-482-0231

FAX:         202-482-4266


For a complete listing of all OIG publicly released
reports, visit the OIG Internet Web Site.




             http://www.oig.doc.gov
